p p*

Jw_

supreme Court, US.'

filed

IN THE

MAR 2 9 2021
SUPREME COURT OF THE UNITED STATES
OFFICE OF THE Cl FRk’

— PETITIONER
(Your Name)
vs.
— RESPONDENT (S)
ON PETITION FOR A WRIT OF CERTIORARI TO

T^K

AUUe

oU-C

-h

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

t

l<?\*

(Your Name)

^

CMap

UcA,

(Address)

ALiL^L,
(City, State, Zip Code)

(Phone Number)

Me <3///y

QUESTIONS PRESENTED
1. Opposing Counsel in this case was the law firm of Jabar, Laliberty, and
Dubord, LLC, and lead counsel for that law firm is George Jabar, son of
Justice Joseph Jabar of The Maine Supreme Court. Petitioner was
constantly and continually disenfranchised by The Maine Courts in this case,
and Petitioner asserts that the father/son relationship of George Jabar and
Justice Joseph Jabar has led to the infringement by The Maine Courts,
including the Maine State Supreme Court, upon Petitioner’s Fifth
Amendment Rights to Substantive and Procedural Due Process in this
Eviction Case.
2. Opposing Counsel George Jabar is/was the Elected Official in charge of
oversight of The Kennebec County Sheriffs Office. Petitioner delivered no
less than eight different signed, sworn, and notarized Police Reports to that
Sheriffs Office describing abuses visited upon him by the Respondent’s other
tenants, and at no time did that Sheriffs Office respond to or address any of
the Petitioners substantial claims of abuse and illegal behavior being visited
upon him by respondent’s tenants. Petitioner was instructed by the Maine
Attorney General’s Office to contact George Jabar in regards to this situation,
and he has, and George Jabar has likewise refused to contact the Petitioner
in any way regarding the complete lack of assistance from the Kennebec
County Sheriffs Office. George Jabar, Elected Official with oversight of the
Kennebec County Sheriffs Office and son of Maine Supreme Court Justice
Joseph Jabar, then proceeded to prosecute this eviction case through his law
firm on behalf of the Respondent, the Petitioner was made to look like the
agitator instead of Respondent’s other tenants and despite the eight police
reports Petitioner had filed to the contrary, and Petitioner was evicted.
Therefore Petitioner asserts his Fourth Amendment Rights to Equal Access
to and Protection Under the Law has been infringed upon.
3. Petitioner has made The Courts (both Maine State and Federal) aware of the
Fact that he has been tortured and at no time have any of those Courts
complied with the Geneva Conventions against Torture, to which the United
States is a signed participant and is therefore bound to uphold. Thus
Petitioner asserts that he has been and is being subject to Cruel and Unusual
Punishment(s), a violation of his Eighth and Ninth Amendment Rights.

LIST OF PARTIES

[X] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
Bellavia v. Plourde, No. PEN-19-514, Maine State Supreme Court. Judgement
entered 10/29/20.
Bellavia v. Plourde, No. AP-19-11 (formerly AP-18-69), Penobscot County Superior
Court. Judgement entered 12/20/19.
Bellavia v. Plourde, No. AP-19-12 (formerly AP-19-20), Penobscot County Superior
Court. Judgement entered 12/20/19.
Bellavia v. Plourde, No. WATDC-SA-18-377, Waterville District Court. Judgement
entered 03/21/19.
Bellavia v. Plourde, No. WATDC-SA-18-383, Waterville District Court. Judgement
entered 10/12/18.

TABLE OF CONTENTS

OPINIONS BELOW.

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE PETITION

11

CONCLUSION

36

INDEX TO APPENDICIES

APPENDIX A

Decision of Maine State Supreme Court, KEN-19-514

APPENDIX B

Decision of Penobscot County Superior Court, Combined

APPENDIX C

Decision of Waterville District Court, WATDC-SA-18-377

APPENDIX D

Decision of Waterville District Court, WATDC-SA-18-383

APPENDIX E

18 U.S.C. Chapter 113C — Torture

APPENDIX F

Geneva Conventions against Torture and Other Cruel, Inhuman
or Degrading Treatment or Punishment

TABLE OF AUTHORITIES

Cases
Artuso v. Vertex Pharm Inc., 637 F.3d 1, 5 (1st Cir. 2011)

25-35

Haines v. Kerner, 404 U.S. 519,520...................................

25-35

Statutes and Rules
14 M.R.S. 6001 et seq.

11-20

M.R. Civ. P. 76(G)(c).

11-20

18U.S.C. 113C.........

25-35

Other
Fifth Amendment to the Constitution

11-20

Fourth Amendment to the Constitution.....

21-24

Eighth Amendment to the Constitution.....

25 - 35

Ninth Amendment to the Constitution____

25-35

Fourteenth Amendment to the Constitution

25-35

The Geneva Conventions Against Torture and Other Cruel, Inhuman or Degrading
Treatment or Punishment
25-35

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[)d For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_A__to the petition and is
Dec, NJo , g.6 M reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

The opinion of the
appears at Appendix__S__to the petition and is
reported at
; or,
+ Af-K- 17[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

001

court

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was______________________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including _
(date) on
(date)
A
in Application No.
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
/A
A copy of that decision appears at Appendix
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________, and a copy of the order denying rehearing
appears at Appendix
[)d An extension of time to file the petition for a writ of certiorari was granted
to and including
1_____ (date) on___Q^t ‘j (g-o___(date) in
ApplicaUuii Nu.i_A— - _. "Of-J*c,v>
di.sT)
4x»

£-(L<

Cadr

-fv

l SZf

-

The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

002

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
1. The Fourth Amendment to the United States Constitution - The right
of the people to be secure in their persons, hous-es, papers, and effects,
against unreasonable searches and seizures, shall not be violated, and no
Warrants shall issue, but upon probable cause, supported by Oath or
affirma-tion, and particularly describing the place to be searched, and the
persons or things to be seized.
2. The Fifth Amendment to the United States Constitution - No person

shall be held to answer for a capital, or otherwise infamous crime, unless on a
presentment or indictment of a Grand Jury, except in cases arising in the
land or naval forces, or in the Militia, when in actual service in time of War
or public danger; nor shall any person be subject for the same offence to be
twice put in jeopardy oflife or limb; nor shall be compelled in any criminal
case to be a witness against himself, nor be deprived of life, liberty, or
property, without due process of law; nor shall private property be taken for
public use, without just compensation.
3. The Eighth Amendment to the United States Constitution - Excessive

bail shall not be required, nor excessive fines imposed, nor cruel and unusual
punishments inflicted.
4. The Ninth Amendment to the United States Constitution - The
enumeration in the Constitution, of certain rights, shall not be construed to
deny or disparage others retained by the people.
5. 18 USC Chapter 113C - Federal Torture Statutes. Included as Appendix
E due to length.
6. The Geneva Conventions against Torture and other Cruel, Inhuman,

or Degrading Treatment or Punishment — Adopted and opened for
signature, ratification and accession by General Assembly resolution 39/46 of
10 December 1984; entry into force 26 June 1987, in accordance with article
27(1). Included as Appendix F due to length.

003

STATEMENT OF THE CASE
Petitioner Glen D. Plourde and Respondent Stephen C. Bellavia (“Bellavia”)
entered into a Contractual Agreement in the form of a 12-Month Lease for 11
Hussey Road, Apartment #3 on 04/29/18 (KEN-19-514 Appendix 82 - 103).
11 Hussey Road is a “Main House” with 4 additional occupancies,
although the Albion Town Tax Records record the actual address of this single
building as 7 Hussey Road (KEN-19-514 Appendix 124 - 134). Petitioner only
became aware of this fact on 08/07/18 and thus at that time learned that Bellavia
had intentionally misidentified his address to the Petitioner on the Lease
Agreement (housing fraud).
Immediately upon moving in, Petitioner began to experience breaking
and entering into his apartment and automobile, theft and burglary of his
possessions, and abuse from Bellavia’s other Tenants, who were the Petitioner’s
neighbors.
Petitioner made numerous phone calls to Bellavia during the dates of
approximately 05/01/18 through 07/28/18 in order to report and complain of these
illegal and hostile incidents. Petitioner’s calls were usually directed to Bellavia’s
voicemail; Petitioner therefore left many detailed messages, but almost never were
these messages returned, and never were any of these incidents ever addressed or
resolved by Bellavia.
After being physically assaulted by the female occupant of Apartment #1
during approximately late-June, Petitioner informed Bellavia that he would be

004

filing Police Report(s) with the Kennebec County Sheriffs Office, and that the Police
Report(s) would contain the additional, numerous incidents and complaints
Petitioner had made Bellavia aware of since approximately 05/01/18.
On 07/04/18 Petitioner hung two Red Cross Flags from his back balcony, one
on a horizontal flagpole, the other suspended vertically from the bottom of the
balcony (KEN-19-514 Appendix 170). That same day Petitioner also installed
curtains in his apartment bearing the Red Cross logo on them (KEN-19-514
Appendix 171).
Petitioner was confronted less than two weeks later by Bellavia in the narrow
stairwell leading to Petitioner’s apartment. Bellavia physically blocked access to
Petitioner’s front door and used the opportunity to interrogate Petitioner about the
Red Cross Flags. It was clear Bellavia was not pleased with the presence of the Red
Cross Flags and was attempting to intimidate the Petitioner into taking them down.
As a result of this incident, on 07/24/18 Petitioner filed a Complaint of
Discrimination in Housing with the Maine Human Rights Commission (“MHRC”),
do MHRC Administrative Director Amy Sneirson and MHRC Lead Counsel
Barbara Archer-Hirsh.
A few days later, on 07/26/18, Petitioner found a letter in his mailbox,
postmarked 07/16/18 from Bellavia. The letter was either illegally postmarked or
took 10 days to deliver from the post office, approximately one-tenth of a mile away
from Petitioner’s apartment at 7 Hussey Road. Within that letter were a number of
alleged noncompliances with the Lease Agreement (KEN-19-514 Appendix.104 -

005

106). Petitioner found that it was stated that his neighbors had made various
complaints against him (all of the complaints were lies), and found that there were
a few issues that could be objectively remedied. Petitioner did so immediately and
all noncompliances were objectively remedied by 07/27/18.
On 07/27/18 Petitioner found another letter in his mailbox from Bellavia,
postmarked 07/27/18, in which he found a State of Maine Eviction Notice (KEN-19514 Appendix 107). Petitioner reviewed the Eviction Notice, the Lease Language,
and appropriate Maine Statutes and discovered the notice was not lawful as it was
dated and issued within the legal time-frame the Petitioner had to remedy the
noncompliances stated in Bellavia’s 07/26/18 letter.
On 07/28/18 Petitioner sent a letter to Bellavia stating all noncompliances
were resolved in the time frame allowed for by Law, and that the Petitioner
considered the matter resolved unless he heard otherwise from Bellavia (KEN-19514 Appendix 110 - 112). Petitioner never heard otherwise from Bellavia.
After receiving the 07/26/18 letter with 10-day old postmark and 07/27/18
unlawful eviction notice, Petitioner realized he was dealing with not only hostile
tenants but an unscrupulous landlord engaging in nefarious activity, and attempted
to document the problems he was experiencing under Bellavia’s Landlordship.
Petitioner began sending Bellavia letters of inquiry, concern, and complaint;
sometimes on a daily basis, as the hostilities at 11 Hussey Road were an almost
daily occurrence. These letters were sent beginning 07/28/18 and continued through

006

10/29/19 (KEN-19-514 Appendix 172 - 242). Petitioner never received a response to
any of his substantial inquiries, concerns, and complaints.
On 08/08/18, one day after visiting the Albion Town Office and obtaining hard
evidence of Housing Fraud committed upon him by Bellavia (that evidence being
the Town Tax Records for the one building on Bellavia’s property, which was listed
and has always been listed as 7, not 11, Hussey Road), Petitioner received a letter
from Bellavia asking Petitioner to move out of the apartment (KEN-19-514
Appendix 113 - 114). The letter also contained a self-described “olive branch”;
Bellavia wrote that he “Would not hold Petitioner to the terms and associated
penalties of breaking the Lease” if Petitioner moved out within the week.
Clearly Bellavia knew there was a Lawful Lease in Effect as had his 07/27/18
Eviction Notice been lawful there would have been no Lease in Effect to hold
Petitioner accountable to. Bellavia also stated that if the Petitioner had not moved
within the week he would evict the Petitioner and “hold Petitioner to the terms and
associated penalties of breaking the Lease”, again recognizing the Lease in Effect.
On 08/15/18 Petitioner filed a Police Report with the Kennebec County
Sheriffs Office, hand-delivered c/o Kennebec County Sheriff Ken Mason, containing
15 pages of narrative describing the abuses and illegal activities he had suffered
under Bellavia’s Landlordship, as well as 29 distinct attachments referenced within
that narrative. All documents were Legally Notarized and Sworn to and Signed
under Penalty of Perjury. This Police Report also contained hard evidence of

007

Bellavia’s Fraudulent address assignment to the unwitting Petitioner (KEN-19-514
Appendix.243 - 258).
On 08/16/18 Petitioner received a letter from Bellavia stating, incorrectly so,
that Petitioner’s burning of candles was a “Violation of the Lease”. Again, Bellavia
referenced the Lease in Effect and clearly knew that his 07/27/18 Eviction Notice
was not lawful (KEN-19-514 Appendix. 118).
On 08/29/18 Petitioner found both a 7-day and 30-day notice to quit on the
floor outside his door (KEN-19-514 Appendix.259 - 260). Petitioner recognized that
these notices to quit apply only to Tenancies at Will under 14 M.R.S. § 6002 and
therefore found that these notices did not apply to him as a Tenant under Lease,
which he clearly was, as Petitioner had lost no right to his lease pursuant to 14
M.R.S. § 6001.
On 09/20/18 Petitioner found a Notice for a Forcible Entry and Detainer
(eviction) hearing to be held on 09/28/18 taped to his apartment door (KEN-19-514
Appendix.38 - 42). That FED hearing was later given the docket number WATDCSA-18-377.
On 09/28/18 that hearing began under the direction of Judge Stanfill.
Opening Statements were made and a witness was called, that being Bellavia, and
time expired during Petitioner’s cross-examination of Bellavia. The hearing was
continued until 10/25/18 (KEN-19-514 Appendix 261). Bellavia was relentlessly
cross-examined by Petitioner during that hearing regarding the fraudulent address
assignment and Bellavia committed numerous and verifiable perjuries during that

008

cross-examination that are evident in the Record (Ref. 09/28/18 WATDC-SA-18-377
hearing transcript).
On 10/05/18 Petitioner found a Notice for a second FED hearing to be held on
10/12/18 taped to his door (KEN-19-514 Appendix 31 - 37). Petitioner found that
Bellavia’s law firm of choice, Jabar, Laliberty and Dubord LLC (“JLD”) had used
clever wording and perjury (e.g. Petitioner was now stated by JLD to be a “Tenant
under Lease” rather than a “Tenant at Will”) to contrive a second FED action
against him although objectively none of the facts in question had changed, and
WATDC-SA-18-377 was set to recommence on 10/25/18. Petitioner was confused
with this situation and went immediately to Waterville District Court to seek some
answers. This second FED action against Petitioner in less than two weeks by JLD
was later docketed as WATDC-SA-18-383.
Court Clerk “Sara” was more confused than Petitioner. She kept mistaking
this second FED Action with the first one currently being adjudicated, WATDC-SA18-377. “Sara” spoke to her superiors, who promptly made a phone call; to whom
Petitioner does not know. Finally, after discussion with her superiors, “Sara”
returned and informed Petitioner this was no mistake and there was indeed a
second FED Action against him, WATDC-SA-18-383, while WATDC-SA-18-377 was
still in the process of being adjudicated. “Sara” apologized to Petitioner, and stated
verbatim to Petitioner that “I have never seen anything like this in my entire life”.
“Sara” had immediately identified this situation as nefarious and the civil version of
double-jeopardy.

009

On 10/12/18 WATDC-SA-18-383 commenced under the direction of Judge
Nale, who made it explicitly clear that the Hearing and his Judgement would be
concluded and entered that same day (Numerous, First Instance WATDC-SA-18383 AT File 1344 3:15-3:25). Unlike Judge Stanfill, Judge Nale allowed no
questioning of Bellavia in regards to the housing fraud committed by Bellavia
against the petitioner.
When Petitioner made Judge Nale aware of the Factual Inconsistency
committed by JLD in asserting him to be a Tenant at Will in WATDC-SA-18-377
and then a Tenant under Lease in WATDC-SA-18-383, Judge Nale, instead of
addressing this issue of Perjury, stated arrogantly, “Well, we’re going to find out
which one it is” (WATDC-SA-18-383 AT File 1325, 14:50-15:20).
Thus the WATDC-SA-18-383 hearing on this second Motion for eviction by
JLD against Petitioner began and concluded that day and Judge Nale ruled in favor
of Bellavia, before WATDC-SA-18-377 could recommence on 10/25/18 and Petitioner
could provide additional factual evidence of housing fraud and perjury having been
committed by Bellavia (Petitioner had, for example, the property deed in his
possession by that time).
Petitioner knows he has been dealt numerous injustices by the “impartial”
Maine Court System, who have continually ignored multiple instances of blatant
impropriety committed by both JLD and Bellavia, have undermined the Law to
support their own predetermined conclusions, and have allowed the Petitioner to be
evicted unlawfully.

010

REASONS FOR GRANTING THE PETITION
1. Opposing Counsel in this case was the law firm of Jabar, Laliberty,
and Dubord, LLC, and lead counsel for that law firm is George Jabar,
son of Justice Joseph Jabar of The Maine Supreme Court. Petitioner
was constantly and continually disenfranchised by The Maine Courts
in this case, and Petitioner asserts that the father/son relationship of
George Jabar and Justice Joseph Jabar has led to the infringement
by The Maine Courts, including the Maine State Supreme Court,
upon Petitioner’s Fifth Amendment Rights to Substantive and
Procedural Due Process in this Eviction Case.
Kennebec County Commissioner George Jabar is not only the lead counsel for
Jabar, Laliberty and Dubord LLC (“JLD”), the law firm that respondent Stephen
Bellavia (“Bellavia”) has hired to evict the Petitioner. George Jabar is also the son
of Maine State Supreme Court Justice Joseph Jabar.
It is fair to say that Maine is “kind of a small town” and that this relationship
is no big secret. Petitioner therefore finds it to be no surprise that his Fifth
Amendment Rights to Substantive and Procedural Due Process have been infringed
upon at nearly every opportunity and that he has been continually disenfranchised
by The Maine State Court System at nearly every opportunity.
Petitioner will provide This Court with examples that illustrate his point.
The Petitioner has appealed to the Kennebec Supreme Court, as the eviction
order was issued in Waterville (Kennebec County). Both Justices associated with
Kennebec County, Justice Murphy or Justice Stokes, have recused themselves
without comment. Petitioner was not joking when he said Maine is “kind of a small
town”, and George Jabar, son of Supreme Court Justice Joseph Jabar, wields a

011

certain amount of influence by virtue of his lineage, and Justice Murphy and Justice
Stokes wanted nothing to do with this rotten-to-the-core case.
JLD and Bellavia have identified two separate individuals as the singular
witness “Brett Moores” and neither the Maine Superior Court nor The Maine
Supreme Court have responded adequately or appropriately to this blatant case of
fraud having been perpetrated upon both the Petitioner and The Court.
Petitioner has subpoenaed Waterville District Court surveillance footage,
Albion Town Office surveillance footage, and Rental Records from Bellavia in both
AP-19-11 and AP-19-12 to prove this fraud has occurred, and none of those lawfully
issued and lawfully served subpoenas were complied with hy any of their recipients,
and The Court failed to enforce any Motions to Compel and refused to sanction any
of those individuals for failure to comply as it should have.
The Waterville District Court surveillance footage would have proven that
two separate men; the first an older, slender, and well-spoken individual and the
second a middle-aged, stocky, and not so well-spoken individual were brought to
that courthouse and identified by JLD as the witness “Brett Moores” of 11 (7)
Hussey Road Apartment #2 on the dates September 28 2018 and October 12 2018,
respectively. Neither of these individuals was the real occupant of 11 Hussey Road
Apartment #2 that Petitioner witnessed on a near-daily basis. Maine State
Assistant Attorney General Jonathan Bolton (“The State of Maine”) has injected
itself into this lawful subpoena by submitting a number of objections to this
subpoena. Petitioner responded hy submitting a Motion to Compel. Petitioner finds

012

it abhorrent that The State of Maine has actively participated in this cover-up of
blatant witness fraud.
The Albion Town Office surveillance footage would have shown the real and
only individual staying at 11 Hussey Road Apartment #2 on a daily basis during the
time frame in question, as this individual “just happened” to arrive at the Albion
Town Office while Petitioner was seeking tax records there on 08/07/18. Albion
Town Office Treasurer and Clerk of over 20 years’ Amanda Dow of 67 Main Street
Albion (also Petitioner’s neighbor) was at the Albion Town Office on 08/07/18 and
was issued a subpoena for this surveillance footage, which she made no effort to
comply with whatsoever. No response to this subpoena was entered into the Court
Records, as inspection of the Docket Records clearly shows. Petitioner therefore
issued both a Motion to Compel and a Motion for a finding of Contempt of Amanda
Dow. There is no reason this lawful subpoena should not have been complied with
(or even answered with a motion to quash, however frivolous it would have been),
the only logical explanation is that The Town of Albion had something to hide and
actively participated in this cover-up of blatant witness fraud.
The Rental Records subpoenaed from Appellee Bellavia would have been
incriminating in any number of ways as “Brett Moores”, if even fisted on those
rental records as being the occupant of 11 Hussey Road Apartment #2, could not
possibly be two different individuals as the Waterville District Court security
footage would show him identified as by JLD and Bellavia, nor could either of those
individuals have been the real occupant of 11 Hussey Road Apartment #2 that

013

Petitioner saw on a near-daily basis as the Albion Town Office surveillance footage
would have shown. JLD, unsurprisingly, issued an objection to this subpoena and
Petitioner responded by issuing a Motion to Compel.
The Penobscot County Supreme Court had over six months to rule on or
schedule a hearing on any of the Objections to the subpoenas or Motions to Compel
but failed to do so before issuing its 12/20/19 Order. Petitioner later received a copy
of his Motions on 01/21/20 that simply stated “Denied”.
Petitioner finds that a seriously unjust situation has occurred here and that
it clearly favors JLD, Bellavia, and The State of Maine.
First, there is ample evidence available to prove that both JLD and Bellavia
have committed Witness Fraud in both cases under review (combined by the Maine
State Supreme Court into this single case KEN-19-514 under review), and
Petitioner has attempted to legally procure that evidence at his own considerable
expense through lawful subpoena, and The Court completely ignored those lawful
subpoenas and failed to even schedule a hearing on any objection to those
subpoenas or any subsequently submitted Motion to compel.
Second, by failing to schedule a hearing on the Objections to Petitioner’s
lawful subpoenas or Motions to compel, The Court has effectively shielded JLD,
Bellavia, and The State of Maine from going On The Record and incriminating
themselves or committing verifiable perjury in the process. Again, by ignoring
Petitioner’s lawful subpoenas, The Court has clearly shown favoritism towards JLD,
Bellavia, and The State of Maine.

014

The Penobscot County Superior Court has stated that “there is overwhelming
evidence that supports the presiding judge’s findings with regard to the identity of
the witness” (Appendix B), although it has failed to cite any of that “overwhelming
evidence” and has completely ignored “the elephant in the room” as described above.
The 10/12/18 Witness may actually be somehow identifiable as “Brett Moores”
(although The Court has provided no evidence whatsoever to support this
conclusion), but this individual was clearly not the same man brought to The Court
on 09/28/18 by JLD and Bellavia and identified as “Brett Moores”, nor was this the
man who was actually staying at 11 Hussey Road Apartment #2 on a daily basis
(Ref. KEN-19-514 18-21). .
The Maine State Superior Court, with the blessing of Assistant Attorney
General Jonathan Bolton, has clearly not served the Interests of Justice here and
has allowed JLD and Bellavia to perpetrate a Fraud upon both Petitioner and The
Honorable Court, despite Petitioner’s lawful efforts (subpoena) to prevent this
situation from occurring. Committing verifiable Fraud and Perjury upon The Court
and the Petitioner is a severe injustice, and The Honorable United States Supreme
Court should not abide such sever injustice, nor tacitly condone such severe
injustice by denying this petition.
The Penobscot County Supreme Court’s analysis of the eviction process and
conclusions regarding AP-19-11, as published in their decision (Appendix B) are
flawed. The petitioner does not have time to explain the entire argument here but
will refer The Court to his Supreme Court Brief (Ref. KEN-19-514 22 — 26). In

015

short, The Maine Courts have ignored the fact that the 07/16/18 (07/26/18) letter of
noncompliance was properly resolved and the associated 07/27/18 eviction notice
was not lawful as it was issued during the time period the Petitioner had to remedy
the noncompliances (12 days from date of letter). The noncompliances were
remedied, and both Bellavia and Petitioner agreed that they had been, with
Bellavia citing the lease at least three times in subsequent communications.
Therefore, it is evident that the Plaintiff never lost the lease in effect, and was
therefore still a tenant under lease, and could not have been evicted absent another
such letter of noncompliance with the applicable time to remedy any such
noncompliances, which the Plaintiff never received. The argument is simple and
straightforward, logical and pursuant to the applicable Maine Housing Statutes (14
M.R.S. 6001 et. seq.), and no amount of double-speak and confounding language as
found in the Penobscot County Superior Court’s Order (Appendix B) can hide the
simple truth of the matter, which is that the Petitioner was unlawfully evicted, and
The Maine State Court System was more than happy to attempt to sweep that fact
under the carpet (Ref. KEN-19-514 22 — 26).
The Petitioner was furthermore evicted “absent the rebuttal of the
presumption of retaliation”. The Petitioner raised the presumption of retaliation
during the 10/12/18 court hearing, and there was no rebuttal whatsoever. 14 M.R.S.
6001(3) is very clear and states simply “No Writ of Possession [eviction] may issue
absent the rebuttal of the presumption of retaliation”. Petitioner raised the
presumption of retaliation pursuant to 14 M.R.S. 6001(3)(B) as he had reported the

016

housing fraud committed upon him by Bellavia to The Kennebec County Sheriffs
Office, The Maine State Attorney General’s Office, and The Maine Human Rights
Commission, among other State and Federal Agencies in charge of housing
regulations and criminal activity. It is therefore no surprise that a rebuttal of the
presumption of retaliation was never offered, as it was clear Bellavia had already
perjured himself during the 09/28/18 case hearing in WATDC-SA-18-377, and any
response during the 10/12/18 case hearing was either going to again be perjerous or
self-incriminating. Thus, the Petitioner was unlawfully evicted, as 14 M.R.S.
6001(3) clearly states “No Writ of Possession [eviction] may issue absent the
rebuttal of the presumption of retaliation”. This unlawful eviction was
subsequently upheld in the Maine Superior and Supreme Courts, with no discussion
whatsoever of the fact that “No Writ of Possession [eviction] may issue absent the
rebuttal of the presumption of retaliation” and there had been no rebuttal of the
presumption of retaliation, which the Petitioner had properly raised. Thus the
Petitioner has again been unlawfully evicted (Ref. KEN-19-514 27 — 30).
JLD initially attempted to evict Petitioner on 09/28/18. During that hearing,
Petitioner exposed the fact that housing fraud had been committed upon him, and
Bellavia was dumb-struck and continually perjured himself regarding this fact (Ref.
09/28/18 WATDC-SA-18-377 Trial Transcript) and facts surrounding the history
and address of his apartment complex. That hearing was continued until 10/25/18.
JLD realized that that case was doomed to fail and was not going to go well for
Bellavia and thus initiated WATDC-SA-18-383 on 10/12/18, and, with the help of

017

Judge Nale, who did not allow the Petitioner to question Bellavia at all about the
actual address of the Petitioner’s dwelling or housing fraud, concluded it and found
against the Petitioner all in the same day. Thus, the WATDC-SA-18-377 hearing
was never recommenced on 10/25/18, and Bellavia’s verifiable perjuries were swept
under the carpet (or at least attempted to be).
But that was not the end of WATDC-SA-18-377. Even after prevailing in
WATDC-SA-18-383, JLD refused to drop WATDC-SA-18-377 and had it “held over”
for “status conference only” until JLD finally dropped it on 03/21/19. The petitioner
finds no motive for this action other than malicious intent — to keep a case open
against the Petitioner for as long as possible, which is not particularly pleasant if
you are a Pro Se defendant.
Regarding Judge Nale. There are four different Attorneys’ and one Judge
named Nale in Waterville. And they happen to be all related. Petitioner wasn’t
kidding when he said Maine was “kind of a small town”, and the conflicts of
interests here are kind of staggering.
The Maine Supreme Court refused to hold Oral Argumentation in this case,
despite a motion to do so from the Petitioner and a motion to reconsider when it was
denied. In doing so, The Maine Supreme Court has sheltered Maine Supreme Court
Justice Jabar’s son George Jabar from arguing the merits of this case with the
Petitioner On The Record. If you think the Pro Se Petitioner would have lost during
oral argumentation against a legal heavyweight like George Jabar — think again.
All the Petitioner had to do during oral argumentation was cite 14 M.R.S. 6001(3)

018

and the 10/12/18 Trial Transcript that showed no rebuttal of the presumption of
retaliation was offered, as 14 M.R.S. 6001(3) states clearly that “No Writ of
Possession [eviction] may issue absent the rebuttal of the Presumption of
Retaliation”, and the Petitioner would have (or should have) won his case, as simple
as that (Ref. 14 M.R.S. 6001(3) & WATDC-SA-18-383 Trial Transcript).
Alternatively, The Maine Supreme Court would be On The Record arguing with the
Pro Se Plaintiff over the wrong side of a statute that could not be any clearer or
more easily interpreted. Thus, The Maine State Supreme Court has saved
themselves, and Maine State Supreme Court Justice Joseph Jabar’s son George
Jabar, and Bellavia from the trouble of confronting such a simple statute On The
Record and have instead issued an Order devoid of any argument whatsoever and
that cites nothing whatsoever in their affirmation of the lower court’s decision
(Appendix A).
The Petitioner has furthermore been disenfranchised by both the Kennebec
and Penobscot County Superior Courts, as neither Court has scheduled Oral
Argumentation in this case. Unlike The Maine Supreme Court, oral argumentation
is “compulsor/’ in Maine Superior Court (Ref. M.R. Civ. P. 76(G)(c) (although you
don’t need to attend if you don’t want to be heard), unless both parties agree to
forego it. Petitioner never agreed to forego it, and thus he has been disenfranchised
by both of those Courts’ (Justice Murphy and Stokes of Kennebec County had not
recused themselves in time to have avoided oral argumentation). Again, all the
Petitioner needed to do to win (or force The Court to argue On The Record directly

019

against a very simple law, which would look and sound absurd) was to bring up the
10/12/18 trial transcript and show that the presumption of retaliation was made
and the fact that no rebuttal was offered as described in the preceding paragraph.
Again, the Maine State Superior Court has sheltered itself and George Jabar from
confronting the simple truth of the matter On The Record: That the Petitioner was
evicted unlawfully.
What kind of attorney gets all the unlawful breaks in his favor from The
District Court, The Maine State Superior Court, and The Maine State Supreme
Court as described in this argument? The George Jabar kind.
Clearly, no other kind of attorney could have obtained the result George
Jabar has, that being the unlawful eviction of the Petitioner when the Law is so
simple: “No Writ of Possession [eviction] may issue absent the rebuttal of the
presumption of retaliation.”
Petitioner finds, for the numerous examples cited in this argument, that his
Fifth Amendment Due Process Rights have been infringed upon in most blatant and
egregious fashions, and in numerous instances by multiple Courts as described in
this argument. The Honorable United States Supreme Court should not abide such
Constitutional Violations of Substantive and Procedural Due Process Rights being
perpetrated by The District Courts of Maine, nor the Superior Courts of Maine, nor
the Supreme Court of Maine, and should send a clear message that this type of
Infringement upon an unschooled, Pro Se Party’s Constitutional Rights will not be
tolerated by those who know better, by granting Certiorari.

020

2. Petitioner’s Fourth Amendment Rights to Equal Access to and
Protection Under the Law have been infringed upon, and the
Kennebec County Elected Official in charge of oversight of the
Kennebec County Sheriffs Office (“KCSO”), George Jabar, son of
Maine State Supreme Court Justice Joseph Jahar, was not only
complicit but enabling in this Constitutional Disenfranchisement as
the Petitioner made numerous calls to his office seeking assistance
with the KCSO and George Jabar never returned a single call or
advocated with the KCSO on the Petitioner’s behalf. This situation
resulted in a “win” for George Jabar’s own law firm during trial, at
the expense of the Constitutional Rights of the Petitioner, as George
Jabar’s law firm cast the Petitioner as the miscreant, despite no less
than eight very detailed Police Reports, submitted under Penalty of
Perjury, to the KCSO that proved otherwise, and all went
uninvestigated due to the complicit and enabling actions of George
Jabar.
Kennebec County Commissioner George Jabar is not only the lead counsel for
Jabar, Laliberty and Dubord LLC (“JLD”), the law firm that respondent Stephen
Bellavia (“Bellavia”) has hired to evict the Petitioner; George Jabar is additionally
the son of Maine State Supreme Court Justice Joseph Jabar, and George Jabar is
furthermore the Kennebec County elected official responsible for ensuring that the
Kennebec County Sheriffs Office is properly doing their job.
Clearly George Jabar holds some high-power positions and is a man of
political influence. Why his high-powered law firm was hired by Bellavia to execute
a “simple” Forcible Entry and Detainer Action (Eviction) on the Petitioner should be
obvious by now; the eviction action against the Petitioner was not so “simple” after
all (it was not even legal, although the Petitioner is aware that The Court is not
interested in that fact pursuant to Rule 10 of The Rules of The Supreme Court of
The United States) and the Petitioner is not so “simple” either as he has been

021

Tortured by Federal Government Employees and he has made copious amounts of
Maine State and Federal Government Agencies aware of that Fact since
approximately November of 2016.
Petitioner has filed no less than eight separate Signed, Sworn, Notarized, and
Punishable per Perjury Police Reports in Good Faith with the Kennebec County
Sheriff s Department do Sheriff Ken Mason between the dates of approximately
08/15/18 — 10/15/18, most of them containing details of criminal activity and abuse
that the Petitioner has been victim to by Bellavia and Bellavia’s tenants, and has
never received any help or response from that department whatsoever despite his
repeated inquiries to that department, The Maine State Attorney General, Maine
State Governor Paul LePage, Maine State Senator Susan Collins, The Maine
Human Rights Commission, and The Federal Bureau of Investigation.
It is Kennebec County Commissioner George Jabar’s job as that duly elected
official to properly receive the Petitioner’s complaints and mediate with the
Kennebec County Sheriffs Office, and he has not done so despite the Petitioner’s
repeated attempts to solicit the proper assistance from him; he has not even
returned the Petitioner’s phone messages left with his personal secretary regarding
the matter. This fact alone has helped George Jabar’s own law firm’s case(s)
against the Petitioner immensely as a proper investigation into the activities of
Bellavia and his tenants at 11 (7) Hussey Road in Albion Maine would have quickly
revealed that there is a long-standing and grievous pattern of serious harassment,
including a physical assault against the Petitioner, that has been visited upon the

022

Petitioner by both Bellavia and Bellavia’s tenants that began the day after the
petitioner moved in on 04/30/18 and continued until the day that the Petitioner
moved out.
George Jabar is Politically well-connected and wields significant Political
Influence and Political Power and his mere proximity to this case cannot help but
influence it, whether it be through his action or inaction as it relates to assistance
in dealing with the Kennebec County Sheriffs Department. The Kennebec County
Sheriffs Department failed to assist (or even contact) the Petitioner, a violation of
Petitioner’s Fourth Amendment Right to Equal Access to and Protection Under the
Law. Their “boss” George Jabar looked the other way and failed to act when the
Petitioner made him aware of the situation, and thus The Kennebec County
Sheriff s Office was not held accountable for their Constitutional Violations against
the Petitioner, and George Jabar’s law firm’s case(s) against the Petitioner were
helped immensely as there was no proper investigation by Law Enforcement as to
what was actually going on at 11 (7) Hussey Road in Albion, Maine.
Thus, during hearing, Petitioner was cast as a miscreant by George Jabar’s
Law Firm and the very tenants that were abusing him and are listed in no less than
eight Police Reports that went unanswered and uninvestigated, due to the (in)actions
of George Jabar.
Clearly there is much political rot and collusion taking place here between
George Jabar’s law firm and The Kennebec County Sheriffs Department. If this
injustice can happen to the Petitioner than it can happen to anyone, and thus

023

George Jabar and The Kennebec County Sheriffs Department have achieved quite
the racket in Kennebec County, Maine.
The Honorable United States Supreme Court cannot and should not abide
such injustice and abuse of power that has resulted in the intentional infringement
upon the Petitioner’s Fourth Amendment Rights to Equal Access To and Protection
Under the Law. All United States citizens, even tortured and disaffected ones such
as the Petitioner, are guaranteed equal access to and protection under the law by
The United States Constitution.
Constitutionally Disenfranchising the Petitioner for the gain of The Kennebec
County Sheriff’s Department, George Jabar’s Law Firm, Bellavia and Bellavia’s
criminal tenants is vile and illegal. The Honorable United States Supreme Court
should therefore take proactive measure to ensure that such abuses of power can
never occur again.

024

3. Torture is of exceptional importance and for The Courts’, both State
and Federal, to continually ignore the Fact that the Petitioner has
been Tortured and to continue to offer the Petitioner no avenue for
redress, must less a response, is a violation of International Law,
specifically the United Nations Geneva Convention against Torture
and Other Cruel, Inhuman or Degrading Treatment or Punishment,
to which The United States is bound to abide by, as well as a
violation of The United States’ own Constitution. Such continual
and intentional failure to address this fact by The State and Federal
Courts poses serious questions and concerns regarding The United
States’ commitment to honor its International Obligations as well as
respect its own Constitutional Law(s) and its’ own citizens’ Human
Rights.
The State and Federal Courts have continually and intentionally erred in
overlooking the fact that the Petitioner has been Tortured as described extensively
in his Court Documentation; not all references will be listed here as they are
copious although the Petitioner will list some of the numerous (Ref. KEN-19-514),
(Ref. KEN-18-479), (Ref. PEN-18-514), (Ref. KEN-20-217), (Ref. First Circuit Court
of Appeals Petitioners Brief 20—1610 pages 3, 22; “Motion for Court-Appointed
Attorney” 11/27/20 f 5; “Second Motion for Court-Appointed Attorney” 12/08/20 TH(5,
8, 9; “Complaint”, Exhibit N), (Ref. First Circuit Court of Appeals Petitioners Brief
20-1611 pages 2, 7, 14, 27 - 29, 29 - 32, 32 - 33, 38 - 39; “Motion for CourtAppointed Attorney” 11/27/20 1[5; “Second Motion for Court-Appointed Attorney”
12/08/20 f^[5, 8, 9; “Combined Petition for Rehearing En Banc and Panel Rehearing”
pages i—ii, 2 — 10, 16 — 17), (Ref. First Circuit Court of Appeals Petitioners Brief 201777 “Motion for Court-Appointed Attorney” 11/27/20 ^[5; “Second Motion for CourtAppointed Attorney” 12/08/20 ^[5, 8, 9), (Ref. First Circuit Court of Appeals
Petitioners Brief 20-2166 pages 2, 6,15, 28, 44, 49 — 55; “Motion for Court-

025

Appointed Attorney” 12/31/20” f1f5, 8, 9), and The United States Court System has
continually erred in continually and intentionally overlooking this highly-grievous
fact and in not responding to it or otherwise providing the Petitioner with any
assistance whatsoever, and has thus necessarily added themselves to the list of
State and Federal Government Agencies who are in violation of both Federal,
Constitutional, and International Law (Ref. “Eighth and Ninth Amendments to the
United States Constitution”; “USC Chapter 113C — Torture” Appendix E; “Geneva
Conventions Against Torture and Other Cruel, Inhuman or Degrading Treatment or
Punishment”, Appendix F).
The Courts’ continual decision to overlook and not address the fact that the
Petitioner has been tortured therefore conflicts with The United States Constitution
(Ref. “Eighth and Ninth Amendments to the United States Constitution”), U.S. Law
(“USC Chapter 113C — Torture”, Appendix E), and International Law (“Geneva
Conventions Against Torture”, Appendix F). Furthermore, Torture is of exceptional
importance as it is both a heinous Federal and International Crime that is, in some
cases, punishable by death and/or International Sanctions and The Courts’ failure
to address the issue, much less even offer the Petitioner a response, raises serious
doubts as to The United States’ commitment to honor both its own Constitution and
Laws as well as International Obligations.
The Petitioner has made The Maine State Supreme Court aware of the Fact
that he has been tortured in every Appeal he has written to them (Ref. KEN-18-479;
PEN-18-514, KEN-19-514, and KEN-20-217), and likewise has made The United

026

States First Circuit Court of Appeals aware of the Fact that he has been tortured in
every Appeal he has written to them (Ref. 20-1610; 20-1611, 20-1777, and 20-2166;
citations above), and has made The Court aware that he has made numerous State
and Federal Agencies aware that he has been tortured in this case (Ref. KEN-19514), (Ref. KEN-18-479), (Ref. PEN-18-514), (Ref. KEN-20-217), (Ref. First Circuit
Court of Appeals Petitioners Brief 20-1610 pages 3, 22; “Motion for CourtAppointed Attorney” 11/27/20 f 5; “Second Motion for Court-Appointed Attorney”
12/08/20

5, 8, 9; “Complaint”, Exhibit N), (Ref. First Circuit Court of Appeals

Petitioners Brief 20-1611 pages 2, 7, 14, 27 - 29, 29 — 32, 32 — 33, 38 — 39; “Motion
for Court-Appointed Attorney” 11/27/20 f 5; “Second Motion for Court-Appointed
Attorney” 12/08/20 iff 5, 8, 9; “Combined Petition for Rehearing En Banc and Panel
Rehearing” pages i—ii, 2 — 10,16 — 17), (Ref. First Circuit Court of Appeals
Petitioners Brief 20-1777 “Motion for Court-Appointed Attorney” 11/27/20 f 5;
“Second Motion for Court-Appointed Attorney” 12/08/20 ff5, 8, 9), (Ref. First
Circuit Court of Appeals Petitioners Brief 20-2166 pages 2, 6, 15, 28, 44, 49 - 55;
“Motion for Court-Appointed Attorney” 12/31/20” ff5, 8, 9), and none of these
agencies (Numerous State and Federal Agencies, The Maine State Court System, or
The Federal Court System) has complied with Constitutional Law, U.S. Law, or
International Law regarding the Plaintiffs true, accurate, verifiable, and signed
and notarized complaints of Torture (Ref. “Eighth and Ninth Amendments to the
United States Constitution”), (Ref. “USC Chapter 113C — Torture” Appendix E),
(Ref. “Geneva Conventions Against Torture Part 1”, Appendix F).

027

The Petitioner notes that Torture is both a Federal and International Crime
and that The Maine State Supreme Court continually attempts to evade the issue
by stating that it is “not within their jurisdiction”, despite the fact that The State of
Maine has both a duty and obligation to ensure that its citizens United States
Constitutional Rights are respected, upheld, and incorporated through the
Fourteenth Amendment to the United States Constitution (Ref. “Eighth, Ninth, and
Fourteenth Amendments to the United States Constitution”). Setting aside The
Maine State Court System’s refusal to abide by The United States Constitution, The
Federal Court System unquestionably has Jurisdiction over Torture and Claims of
Torture (Ref. “USC Chapter 113C — Torture”, Appendix E), (Ref. “Geneva
Conventions Against Torture”, Appendix F).
Furthermore, the Petitioner has discussed the fact that he has reported the
fact that he has been Tortured to every Government Agency that he could think of
that could conceivably be able to help him. These State and Government Agencies
include, but are not limited to, The United States Department of Justice, The
Federal Bureau of Investigation, The United States Attorney General, The United
States Supreme Court, The United States Chapter (Maine) of The American Red
Cross, The American Civil Liberties Union (ACLU), The Offices of Maine State
Senators Susan Collins and Angus King, The Maine State Supreme Court, The
Maine State Superior Court, The Maine Human Rights Commission, The Maine
Office of the Attorney General (Janet Mills), The Maine Office of the Governor (Paul
LePage), The Maine Government Oversight Committee, The Maine Office for

028

Program Evaluation and Government Accountability, The Knox County Sheriff s
Department, The Kennebec County Sheriffs Department, and The Penobscot
County Sheriffs Department.
None of the above State or Federal Government Agencies has offered
the Petitioner any help whatsoever, not even a response, and are therefore in
violation of both Federal Law 18 U.S.C. 2340, 2340(A), and 2340(B) (Ref. “USC
Chapter 113C — Torture”, Appendix E) and Part 1 Article 13 of The Geneva
Conventions Against Torture (Ref. “Geneva Conventions Against Torture”,
Appendix F). Part 1 Article 13 of The Geneva Conventions Against Torture states:
“Each State Party [including the United States] shall ensure that any
individual who alleges he has been subjected to torture in any territory under its
jurisdiction has the right to complain to, and to have his case promptly and
impartially examined by, its competent authorities. Steps shall be taken to ensure
that the complainant and witnesses are protected against all ill-treatment or
intimidation as a consequence of his complaint or any evidence given.”
(Ref. “Geneva Conventions Against Torture Part 1, Article 13” — Appendix F).
The Petitioner has alleged he has been Tortured by Federal Government
Employees during his employment at CDI Aerospace (UTC Hamilton Sundstrand,
Windsor Locks, CT) during the years of 2012 — 2013 to all of the State and Federal
Government Agencies identified above (although that fist is not all-inclusive) as
early as 11/01/16 (arguably 11/20/15 as this information was disclosed to “Officer
David Trumbull” of the Penobscot County Sheriffs Office on that day), and not a
single one of those Government Agencies has acted to “ensure that any individual
who alleges he has been subjected to torture in any territory under its jurisdiction
has the right to complain to, and to have his case promptly and impartially

029

examined by, its competent authorities”, nor have they acted to ensure ”Steps shall be
taken to ensure that the complainant and witnesses are protected against all illtreatment or intimidation as a consequence of his complaint or any evidence given”,
as Article 13 of The Geneva Conventions Against Torture demands they must (Ref.
“Geneva Conventions Against Torture Part 1 Article 13”, Appendix F).
Therefore it is clear that the above State and Federal Government Agencies,
including The Maine State and Federal Courts, are in International Violation of
The Geneva Conventions Against Torture, Part 1 Article 13, to which The United
States of America is bound to uphold as it is both a signed and principal party to
The Geneva Conventions against Torture as well as The United Nations, who have
adopted The Geneva Conventions against Torture.
Similarly, The above State and Federal Government Agencies, including The
Maine State and Federal Courts, are in International Violation of The Geneva
Conventions Against Torture, Part 1 Article 14, to which The United States of
America is bound to uphold as it is both a signed and principal party to The Geneva
Conventions against Torture as well as The United Nations, who have adopted The
Geneva Conventions against Torture. Part 1 Article 14 of The Geneva Conventions
Against Torture states:
1. “Each State Party [including The United States of America] shall ensure in
its legal system that the victim of an act of torture obtains redress and has an
enforceable right to fair and adequate compensation, including the means for as full
rehabilitation as possible. In the event of the death of the victim as a result of an
act of torture, his dependants shall be entitled to compensation”.
2. “Nothing in this article shall affect any right of the victim or other persons
to compensation which may exist under national law”.

030

(Ref. “Geneva Conventions Against Torture Part 1 Article 14”, Appendix F).
At no time has any of the above-mentioned State or Government Agencies,
including The Maine State and Federal Court Systems, “ensure [d] in its legal
system that the victim of an act of torture obtains redress and has an enforceable
right to fair and adequate compensation, including the means for as full
rehabilitation as possible”, as Part 1 Article 14 of The Geneva Conventions Against
Torture demand they must, and these State and Government Entities therefore are
again undeniably in violation of International Law (Ref. “Geneva Conventions
Against Torture Part 1 Article 14”, Exhibit F).
Finally, The Courts may attempt to “wish away” the Fact that the Petitioner
has been Tortured, and may somehow wish to call his claims of torture unfounded,
frivolous, not rising to the level of Torture, etc., as he has provided only a handful of
details regarding the Torture he has endured, details that are fit to print, as he is
justifiably afraid to publicly disclose the more heinous aspects of the Torture he has
endured because he knows those heinous aspects to be both classified as at least
“Secret” (“Top Secret” in the case of the Petitioner) and knows that “the means and
methods employed” to Torture him “are not commonly known amongst the General
Population”. This is not a case of simple water-boarding or being made to stand
naked in a pyramid (i.e. “Abu Ghraib”); the Torture the Petitioner has endured from
United States Government Personnel is much worse.
However, somehow simply “wishing away” the Petitioner’s allegations of
Torture as unfounded, frivolous, or not rising to the level of Torture, is still in

031

violation of The Geneva Conventions Against Torture, specifically Articles 12 and
Articles 16, which state:
“Each State Party [including the United States of America] shall ensure that
its competent authorities proceed to a prompt and impartial investigation, wherever
there is reasonable ground to believe that an act of torture has been committed in
any territory under its jurisdiction”.
(Ref. “Geneva Conventions Against Torture Part 1, Article 12”, Appendix F).
and
1. “Each State Party shall undertake to prevent in any territory under its
jurisdiction other acts of cruel, inhuman or degrading treatment or punishment
which do not amount to torture as defined in article I, when such acts are
committed by or at the instigation of or with the consent or acquiescence of a public
official or other person acting in an official capacity. In particular, the obligations
contained in articles 10, 11, 12 and 13 shall apply with the substitution for
references to torture of references to other forms of cruel, inhuman or degrading
treatment or punishment.”
2. “The provisions of this Convention are without prejudice to the provisions
of any other international instrument or national law which prohibits cruel,
inhuman or degrading treatment or punishment or which relates to extradition or
expulsion.”
(Ref. “Geneva Conventions Against Torture Part 1, Article 16”, Appendix F).
Furthermore, The First Circuit has held that
“We accept as true all well-pled facts set forth in complaint and draw all
Reasonable Inferences therein in the pleader’s favor.” (Artuso v. Vertex
Pharm Inc., 637 F.3d 1, 5 (1st Cir. 2011).
The Plaintiffs claims of Torture have been signed and sworn to under Notary
and Penalty of Perjury, and are well-pled in every single document This Court has
received from the Petitioner which describes them, and therefore must be accepted as
True by The First Circuit Court of Appeals (and This Court), pursuant to That
Court’s own holding in Artuso v. Vertex Pharm Inc. Furthermore, The Courts must

032

draw all reasonable inferences therein in the pleader’s favor, again pursuant to The
First Circuit Court of Appeals own holding in Artuso v. Vertex Pharm Inc.
Therefore, there is “reasonable ground” to believe the Plaintiff has been
tortured (or at least subjected to Cruel, Inhuman, or Degrading Treatment)
pursuant to Artuso v. Vertex Pharm Inc. and therefore an investigation is demanded
by The Geneva Conventions Against Torture Article 12 (Ref. “Geneva Conventions
Against Torture Part 1 Article 12”, Exhibit F).
Additionally, The United States Supreme Court (This Court) has held that
[The Pleadings of a Pro Se Party are subject to] “less stringent standards
than formal pleadings drafted by lawyers” (Haines v. Kemer, 404 U.S. 519,
520)
The Plaintiff is not sure of what exactly he has to do in order for The Maine
State and Federal Court Systems to “properly receive the allegation that the Plaintiff
has been tortured from the Plaintiff”, and Those Courts have not told the Plaintiff
exactly what is additionally required of him, if anything at all, in order for Those
Court to take his allegations of Torture seriously. However, pursuant to Haines v.
Kemer, the fact that The Plaintiff has alleged he has been tortured to The Maine
State and Federal Courts numerous times and in every Complaint, Appeal, and
Motion for a Court-Appointed Attorney they have received from him (citations above)
should satisfy the Pro Se Plaintiffs burden of pleading the Fact that the Plaintiff
has been Tortured to The Maine State and Federal Courts, since as a Pro Se
Plaintiff the Plaintiff has no idea how to accomplish this in any way other than the
numerous way(s) he already has (Ref. citations above). Thus the Plaintiffs

033

Pleadings of Torture are proper and should be properly recognized and addressed by
The Courts due to tbeir own holding in Artuso v. Vertex Pharm Inc. and The United
States Supreme Courts Holding in Haines v. Kerner.
Therefore, whether or not the above-named Maine State Courts, Federal
Courts, and Maine State or Federal Government Agencies, including This Court,
would like to “believe” the Plaintiff has been Tortured, and they have not told the
Plaintiff that at all, in-fact they have all been suspiciously silent regarding
the matter of Torture at every mention of the matter of Torture, the fact that
the Plaintiff has been tortured has been extensively-pled and well-pled in his
complaint(s) (Ref. citations above), and Those Courts, as well as This Court, must
therefore accept the fact that the Plaintiff has been tortured to be True pursuant to
the holding in Artuso v. Vertex Pharm Inc., and an investigation is therefore
demanded pursuant to The Geneva Conventions against Torture, Part 1, Articles 12
and 13 (Ref. “Geneva Conventions Against Torture Part 1 Articles 12 & 13”,
Appendix F), an investigation which has never been conducted, to the best of the
Plaintiffs knowledge, as not a single government agency has ever attempted
to contact the Plaintiff or solicit additional information in regards to the
Torture he has suffered from United States Government Personnel.
Thus, at present, almost five years’ have elapsed and the above-named
Government Agencies and Courts are still not in compliance with International
Law, specifically The Geneva Conventions Against Torture (Appendix F).

034

CONCLUSION
The petition for a writ of certiorari should be granted.
Furthermore, The Honorable United States Supreme Court should provide
the Petitioner with the resources (Legal Assistance, A Federal Agency, etc.) with
which he might find resolution to the very important problem of Torture that he has
experienced by United States Government Personnel, has made both State and
Federal Courts and Agencies aware of, and yet still remains unresolved.

Respectfully Sujnhitted,

03/28/21

Glen
a
455/Chapman Road
Newburgh, Maine 04444

036

